TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Screening Electronically Filed Returns
                    for Errors Provides a Significant Benefit
                      and Does Not Appear to Be a Barrier
                               to Electronic Filing



                                           May 25, 2007

                              Reference Number: 2007-40-079




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                  May 25, 2007


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Screening Electronically Filed Returns for Errors
                               Provides a Significant Benefit and Does Not Appear to Be a Barrier to
                               Electronic Filing (Audit # 200540036)

 This report presents the results of our review to evaluate whether the acceptance controls for
 electronically filed tax returns were creating an unnecessary barrier to increasing electronic
 filing. This audit was initiated because, although the Internal Revenue Service (IRS) has made
 significant inroads to electronic filing, it has not yet reached its goal of having 80 percent of all
 tax returns filed electronically.

 Impact on the Taxpayer
 Each year, millions of individual income tax returns are submitted electronically with error
 conditions that cause them to be rejected by the IRS. The tax return acceptance controls
 (1) ensure error conditions on electronically filed tax returns are corrected before processing and
 (2) benefit taxpayers filing electronically by providing immediate notification of any error
 requiring correction. In contrast, taxpayers that file on paper encounter processing delays, IRS
 correspondence, and corrections to the amount of taxes owed or refunds due.

 Synopsis
 The IRS Restructuring and Reform Act of 19981 set a goal that at least 80 percent of all returns
 should be filed electronically by 2007. In Tax Year 2005, approximately 73.3 million


 1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                         Screening Electronically Filed Returns for Errors
                        Provides a Significant Benefit and Does Not Appear
                                to Be a Barrier to Electronic Filing


(54 percent) individual income tax returns were filed electronically. To achieve its electronic
filing goal, the IRS recognizes that it must reduce or eliminate barriers to electronic filing while
still maintaining effective controls necessary to ensure the accuracy and validity of tax returns.
To maintain effective control over the acceptance of electronic returns, the IRS uses more than
600 Error Reject Codes to identify and reject electronic tax returns back to taxpayers for
correction of the various errors identified. We reviewed the data related to electronically filed
tax returns that were rejected in Tax Year 2004, when the IRS electronically processed more than
68.5 million individual income tax returns. Of these returns, approximately 5.7 million were
submitted electronically with error conditions that caused them to be rejected by the IRS
electronic filing system. Subsequently, about 4.5 million returns were corrected, resubmitted
electronically, and accepted by the IRS. Thus, the error identification process is working as
intended.
The process also helps the IRS protect tax revenues. More than 600,000 rejected returns were
electronically refiled with the error condition for the duplicate use of a Social Security Number
removed. This helps the IRS protect tax revenues by ensuring taxpayers claim only the tax
benefits to which they are entitled. However, under certain circumstances, the taxpayer whose
return was rejected is rightfully entitled to use the duplicated Social Security Number. To reduce
the burden on taxpayers and paper processing, the IRS has approved modifications to certain
error conditions for the duplicate use of a Social Security Number. This will reduce the number
of electronic returns subject to these conditions and eliminate forcing some taxpayers to refile
their returns on paper. We believe the IRS could apply the same approach to additional error
conditions that are discussed in this report.

Recommendations
We recommended the Commissioner, Wage and Investment Division, modify the reject criteria
in conjunction with currently approved modifications for accepting electronic returns from
qualified taxpayers with duplicate Social Security Number use conditions and modify the reject
criteria for accepting electronic returns from married taxpayers filing jointly using a duplicated
Social Security Number.

Response
IRS management agreed with both recommendations and has submitted or plans to submit Work
Requests to address both. The submitted Work Request modified the reject criteria for
Qualifying Social Security Number use for child and dependent care expenses and the Earned
Income Tax Credit. The planned Work Request will allow returns of married taxpayers filing
jointly using a duplicated Social Security Number to be accepted electronically. Management’s
complete response to the draft report is included as Appendix VI.

                                                                                                       2
                      Screening Electronically Filed Returns for Errors
                     Provides a Significant Benefit and Does Not Appear
                             to Be a Barrier to Electronic Filing


Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 622-5916.




                                                                                         3
                                 Screening Electronically Filed Returns for Errors
                                Provides a Significant Benefit and Does Not Appear
                                        to Be a Barrier to Electronic Filing




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Screening Electronically Filed Tax Returns for Errors Benefits
          Taxpayers and the Internal Revenue Service................................................Page 3
          Acceptance Controls Could Be Modified for Certain
          Circumstances in Which Taxpayers May Be Rightfully
          Claiming Exemptions and/or Credits............................................................Page 5
                    Recommendations 1 and 2: ..............................................Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 10
          Appendix III – Report Distribution List .......................................................Page 11
          Appendix IV – Outcome Measures...............................................................Page 12
          Appendix V – Error Reject Code Sampling Results for Returns
          Refiled on Paper............................................................................................Page 13
          Appendix VI – Management’s Response to the Draft Report ......................Page 14
               Screening Electronically Filed Returns for Errors
              Provides a Significant Benefit and Does Not Appear
                      to Be a Barrier to Electronic Filing




                        Abbreviations

EITC              Earned Income Tax Credit
ERC               Error Reject Code
IRS               Internal Revenue Service
SSN; Number       Social Security Number
                             Screening Electronically Filed Returns for Errors
                            Provides a Significant Benefit and Does Not Appear
                                    to Be a Barrier to Electronic Filing




                                             Background

The Internal Revenue Service (IRS) Restructuring and
Reform Act of 19981 set a goal that at least 80 percent of                     Congress set a goal that
all returns be filed electronically by 2007.2 One of the                     80 percent of all Federal tax
reasons stated for setting this goal was that paperless                       and information returns be
                                                                             electronically filed by 2007.
(electronic) filing was the preferred and most convenient
means of filing Federal income tax and information
returns.
For Tax Year 2004, the IRS received approximately 133.9 million individual income tax returns,
51 percent of which were electronically filed. Electronically filed returns increased to
73.3 million (54 percent) for Tax Year 2005, and the IRS is projecting that more than 66 percent
of all individual income tax returns will be filed electronically by Tax Year 2010.
To ensure continued growth in the volume of electronically filed returns, the IRS must take
further steps to increase participation in electronic filing and reduce barriers that hinder or
prevent the acceptance and processing of these returns. The Electronic Tax Administration
Advisory Committee has identified three major barriers to increasing electronic filing:
    •    Electronic filing must be faster, easier, and more accurate than paper filing, and the initial
         experience must be positive.
    •    Electronic payments must be faster, easier, and more foolproof than paying by paper
         check, and the first experience needs to be positive.
    •    Electronic services offered by the IRS must be faster; easier; and more efficient than
         paper, telephone, or fax-based communications.
The Electronic Tax Administration Advisory Committee, in its 2006 Annual Report to Congress,
stated (1) too many situations continue to exist that impose additional burdens on those who
electronically file and (2) steps need to be taken to eliminate some of the major disparities
between paper and electronic filing, which center on the differences in how electronic and paper
returns are accepted for processing. It is these differences that can contribute to the barriers to
electronic filing growth.




1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  IRS Restructuring and Reform Act of 1998, Section 2001 (a).
                                                                                                              Page 1
                             Screening Electronically Filed Returns for Errors
                            Provides a Significant Benefit and Does Not Appear
                                    to Be a Barrier to Electronic Filing



Electronic returns submitted to the IRS must go through front-end controls before they are
accepted. If a return is submitted with conditions that do not pass these controls, the IRS rejects
the tax return and provides the taxpayer with an explanation through the use of an Error Reject
Code (ERC). The IRS uses more than 600 ERCs to explain why electronically submitted returns
cannot be accepted for processing.3 The ERC explanations are published annually prior to the
filing season4 in Filing Season Supplement for Authorized IRS e-file Providers5 and in Electronic
Return File Specifications and Record Layouts for Individual Income Tax Returns.
In contrast, paper returns cannot be subjected to the electronic front-end acceptance controls
before they are accepted for processing because there are legal and logistical differences in the
way paper returns must be handled by the IRS. For example, when a taxpayer mails a paper
tax return to the IRS, the return is considered legally “filed” once it is postmarked by the
Post Office.6 An electronic return is not considered legally filed until it is received and accepted
by the IRS. Paper returns can be rejected back to taxpayers in only a limited number of
situations (e.g., if they are incomplete and cannot be processed). In addition, the acceptance
controls applied to electronically filed returns would be virtually impossible to conduct manually
on the millions of paper tax returns received by the IRS. While both electronic and paper returns
are subjected to the same processing controls after they are considered legally filed, electronic
returns have significantly fewer errors and are less costly to process as a result of the front-end
acceptance controls placed on them.
We evaluated whether the acceptance controls for electronically filed tax returns were creating a
barrier to increasing electronic filing and whether the controls could be modified to reduce
taxpayer burden. We analyzed the differences between the controls over how electronic returns
are accepted for processing and the controls for processing paper returns and evaluated whether
more returns could be accepted electronically without increasing the risk of accepting returns
with inappropriate refunds claimed or errors that require significant additional correspondence to
correct.
This review was performed at the Wage and Investment Division Headquarters in
Atlanta, Georgia; the Submission Processing offices in Lanham, Maryland, and Cincinnati, Ohio;
and the Austin, Texas, Submission Processing Site7 during the period August 2005 through
January 2007. The audit was conducted in accordance with Government Auditing Standards.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.

3
  See Appendix V for explanations of ERCs 506, 507, 509, 510, and 526.
4
  The period from January through mid-April when most individual income tax returns are filed.
5
  Publications 1345A and 1346, respectively.
6
  This includes the United States Postal Service and other mail delivery services.
7
  These sites process paper and electronic submissions, correct errors, and forward data to the Computing Centers
for analysis and posting to taxpayer accounts.

                                                                                                            Page 2
                              Screening Electronically Filed Returns for Errors
                             Provides a Significant Benefit and Does Not Appear
                                     to Be a Barrier to Electronic Filing




                                         Results of Review

 Screening Electronically Filed Tax Returns for Errors Benefits
 Taxpayers and the Internal Revenue Service
 Overall, the controls established by the IRS to screen electronically filed returns for errors prior
 to accepting them for processing are working as intended and do not create significant barriers to
 electronic filing. For Tax Year 2004, approximately 5.7 million individual income tax returns
 were submitted electronically with error conditions that caused them to be rejected by the IRS.
 There were approximately 11.9 million error conditions identified on the rejected returns (many
 returns contained multiple error conditions), and the top 10 errors accounted for more than
 70 percent of the ERCs generated, as shown in Figure 1.
                      Figure 1: Top 10 Error Conditions for Tax Year 2004
            Error                                                                                      Percentage
            Reject                                                                                      of Overall
     Rank   Code                              Error Description                         Volume             Total
                      Dependent SSN and Name Must Match IRS Data
                                         8
      1       504                                                                       1,511,849             12.7%
                      PIN Information Must Match IRS Data
                                          9
      2       679                                                                       1,243,591             10.4%
                      EITC Child       SSN and Name Must Match IRS Data
                                  10
      3       501                                                                       1,114,396              9.4%
      4       507     Dependent’s SSN Used on Another Return                              955,922              8.0%
      5       502     Employer Identification Number Must Match IRS Data                  865,933              7.3%
      6       500     Taxpayer SSN and Name Must Match IRS Data                           626,050              5.3%
      7       503     Spouse’s SSN and Name Must Match IRS Data                           603,331              5.0%
      8       522     Taxpayer Date of Birth Must Match IRS Data                          563,889              4.7%
      9       680     PIN Information for Spouse Must Match IRS Data                      469,621              3.9%
                      Husband or Wife SSN Claimed As a Dependent SSN
      10      510     on Another Return                                                   443,544              3.7%
                      Total Volume for Top 10 Error Conditions                          8,398,126             70.4%
Source: Treasury Inspector General for Tax Administration analysis of Error Reject Codes as of October 20, 2005.


 8
   SSN = Social Security Number.
 9
   PIN = Personal Identification Number. When filing electronically, a taxpayer must include a Personal
 Identification Number in place of a signature to authenticate the tax return. The Personal Identification Number is
 the Adjusted Gross Income amount from the previous year’s tax return.
 10
    EITC = Earned Income Tax Credit. This refers to the Child’s SSN and name used to qualify for the Credit.
                                                                                                              Page 3
                         Screening Electronically Filed Returns for Errors
                        Provides a Significant Benefit and Does Not Appear
                                to Be a Barrier to Electronic Filing



Of the approximately 5.7 million rejected returns, about 4.5 million (79 percent) were corrected,
resubmitted electronically, and accepted by the IRS. More than 777,000 of the remaining returns
were refiled on paper, and more than 426,000 had not been refiled by the date of our analysis.
Based on this high percentage of taxpayers who corrected and refiled their returns electronically,
it appears the acceptance process and rejection of tax returns containing errors is not a barrier to
taxpayers filing electronically and benefits both the IRS and taxpayers. The IRS benefits
because error-free electronic returns require no human intervention and are fast and easy to
process. Taxpayers benefit by being notified immediately of any errors that would have delayed
the processing of their returns and the issuance of any refunds. The IRS notifies the taxpayer of
the error requiring correction via an ERC(s), which allows the taxpayer to correct the
information or condition and electronically resubmit the tax return in a matter of days. In
contrast, a taxpayer who files a paper return with an error (1) encounters processing delays as a
result of the IRS having to directly correspond with the taxpayer to resolve the error or (2) may
have his or her tax owed or refund due systemically adjusted based on the information on the
return as filed.
For example, as shown in Figure 1, the most common error condition identified by electronic
acceptance controls is a difference between IRS records and what the taxpayer shows on his or
her return as a dependent’s name and Social Security Number (hereafter referred to as SSN or
Number). When a taxpayer files electronically and the return is rejected because of a
discrepancy in the dependent’s name and/or SSN, the taxpayer can correct the error and
immediately resubmit the return. However, if the return was filed on paper, the IRS will attempt
to correct the error during processing based on other information available on the return. If that
is not possible, the IRS will adjust the return for the tax benefits related to the dependent and
send the taxpayer a notice stating the taxpayer’s refund has been reduced due to the discrepancy.
Correcting errors such as this before the return is accepted benefits taxpayers by eliminating
potential problems up front and by preventing processing delays, which ultimately provides
taxpayers with faster refunds.

The rejection of duplicate SSN errors helps the IRS protect tax revenue
When a person is claimed as the primary taxpayer, the secondary (spouse) taxpayer, or a
dependent on two or more tax returns, the IRS refers to this as a duplicate condition. The
duplicate use of a dependent’s SSN to claim a dependent exemption was ranked fourth for all
error conditions and occurred more than 950,000 times on Tax Year 2004 electronic returns, as
shown in Figure 1.
Two other duplicate use conditions also involved significant numbers of taxpayers: duplicate
use to claim the Earned Income Tax Credit (EITC) and use of a primary and/or secondary SSN
on a return that was previously used on another return as a dependent’s Number.
Preventing duplicate SSN use on electronically filed returns helps the IRS protect tax revenues
by ensuring taxpayers claim only the tax benefits to which they are entitled. Taxpayers claimed
                                                                                             Page 4
                               Screening Electronically Filed Returns for Errors
                              Provides a Significant Benefit and Does Not Appear
                                      to Be a Barrier to Electronic Filing



a duplicate Number on more than 600,000 rejected returns that were subsequently refiled
electronically with the condition removed. Our analysis of these electronically refiled returns
after the duplicated SSNs had been removed found that:
       •   A total of 186,144 SSNs were no longer being used to qualify for and claim the EITC.
       •   A total of 554,115 SSNs were no longer being used to claim a dependent exemption.
Of those taxpayers who did not refile electronically after their returns had been rejected for
duplicate SSN use, approximately 337,000 refiled using paper returns. To determine whether
these taxpayers refiled paper returns with the same duplicate condition as that identified on the
taxpayers’ electronic returns, we took judgmental samples from five ERC groups.11 Our
sampling results showed most paper returns were processed without resolution of the duplicate
use condition that had caused the original electronic returns to be rejected from the electronic
filing system. Although the IRS identifies the duplicate use condition on all returns processed, it
is generally unable to resolve the duplicate use on returns during processing because it cannot
readily ascertain which taxpayer is rightfully entitled to claim the duplicated Number. However,
as subsequently explained, the IRS has found in certain instances that it may be possible to
determine which taxpayer is correctly entitled to claim a duplicated SSN by using alternate
sources of internal IRS information.

Acceptance Controls Could Be Modified for Certain Circumstances in
Which Taxpayers May Be Rightfully Claiming Exemptions and/or
Credits
The IRS has identified some situations in which it can avoid rejecting electronically filed tax
returns. These situations involve taxpayers claiming an SSN that had previously been claimed
by another taxpayer, such as an ex-spouse or other family member, for EITC and dependent
exemption purposes. When the second taxpayer electronically filed a tax return claiming a
dependent previously claimed by another taxpayer, the acceptance controls would identify the
duplicate condition and reject the second return. However, the IRS has internal information that
may be used during the acceptance process to validate whether the second taxpayer is entitled to
claim the duplicated Number (i.e., the dependent).




11
     See Appendix V for individual sample results.
                                                                                            Page 5
                               Screening Electronically Filed Returns for Errors
                              Provides a Significant Benefit and Does Not Appear
                                      to Be a Barrier to Electronic Filing



When the electronic tax return acceptance controls identify duplicate conditions, the IRS will
now use internal information derived from the Federal Case Registry12 and the IRS Master File13
to determine whether a taxpayer is the custodial parent and entitled to claim the dependant for
EITC purposes. The information available from the Federal Case Registry and the Master File can
be used to determine the eligibility of the taxpayer claiming the SSN, thus avoiding the need to
reject tax returns that are correct.
The IRS has modified the reject criteria for the error conditions related to these specific
situations and will allow these tax returns to be accepted for processing as filed if the second
taxpayer is entitled to claim the duplicate SSN, thus reducing for taxpayers the burden of having
to refile their tax returns on paper. However, if the second taxpayer is not entitled to claim the
duplicated Number, the electronic tax return will still be rejected. In all situations, if the first
taxpayer is not entitled to claim the SSN, he or she is subject to future compliance reviews. Prior
to this modification to the reject criteria, if the second taxpayer claiming the duplicated Number
is legally entitled to claim the EITC and dependant exemption, the only way that taxpayer could
refile the tax return was on paper.
We believe this same internal information could also be used to allow certain electronic tax returns
with duplicate SSN claims for Child and Dependent Care Expenses (Form 2441) to be accepted
for electronic processing. For example, if a noncustodial parent using his or her child’s SSN
files his or her return claiming the EITC, a dependent exemption, and the Credit for Child and
Dependent Care Expenses, and the custodial parent subsequently files his or her return claiming
the same tax benefits, the custodial parent’s return will encounter a duplicate condition and be
rejected from the electronic filing system. This occurs because the IRS’ current criteria for
applying internal data to allow the duplicated Number consider only the EITC and dependent
exemption but ignore the Form 2441 expenses. However, by modifying its criteria to include the
Form 2441 expenses in addition to the EITC and the dependent exemption, the IRS would be able
to allow returns filed by the custodial parent to be electronically accepted rather than being refiled
on paper, so the custodial parent can claim his or her rightful tax benefits.
For Tax Year 2004, we identified 3,685 electronic returns that were rejected because of duplicate
use of the qualifying person’s SSN shown for Form 2441, the Earned Income Credit: Qualifying
Child Information (Schedule EIC), and a dependent.14 As a result, we believe the IRS’ plan to
check its internal data sources to allow acceptance of certain returns may be more effective in

12
   The Federal Case Registry is a national database, provided to the IRS by the Department of Health and Human
Services, that includes all child support cases handled by State support agencies and all established or modified support
orders.
13
   The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data. The IRS Master File also includes information from
previous years’ tax returns and related transactions that can be used to determine whether the taxpayer is entitled to claim
the EITC.
14
   See ERC 526 in Appendix V.
                                                                                                                   Page 6
                            Screening Electronically Filed Returns for Errors
                           Provides a Significant Benefit and Does Not Appear
                                   to Be a Barrier to Electronic Filing



increasing electronic filing and reducing taxpayer burden if the IRS considers including
additional criteria in its recently approved modifications. IRS management acknowledged that
this additional criteria change could benefit the IRS’ original intent of allowing those tax returns
with valid dependent claims to be accepted for processing.
Additionally, we found the reject criteria for duplicate conditions involving a primary or
secondary (spouse’s) SSN versus a dependent SSN could be modified to prevent certain tax
returns from being rejected from the electronic filing system. This situation occurs, for example,
when a person gets married during the year and files a joint tax return with his or her spouse.
The newly married person is legally entitled to claim himself or herself as an exemption on the
joint tax return, but in some situations his or her parents may have also claimed him or her as a
dependent on their tax return, possibly believing they provided more than one-half the support
for the child during the year and were entitled to claim him or her as a dependent. If the person
files a joint return with his or her spouse first, the parents’ tax return claiming the person as a
dependent will create a duplicate condition and will be properly rejected. However, if the person
files his or her joint return after the parents file their return, the person’s joint return will create
the duplicate condition and will be rejected.15
In Tax Year 2004, duplicate use conditions involving a secondary versus a dependent SSN were
identified on 28,126 electronic returns. In our judgmental sample of paper returns identified with
this error, we determined approximately one-half were initially electronically filed as married
filing jointly but were rejected because the secondary SSN had been previously claimed as a
dependent’s Number on another taxpayer’s return.16 These taxpayers all refiled paper returns
that were the same as the electronic returns (i.e., married filing jointly using the same
primary/secondary SSN as an exemption), which indicates they may be rightfully claiming the
exemption as illustrated in the previous example. In addition, duplicate use conditions involving
a primary and/or secondary SSN versus a dependent SSN were identified on 346,881 Tax
Year 2004 electronic returns.17 IRS management acknowledged that consideration should be
given to additional modifications to prevent the electronic rejection of returns with these
circumstances.
Using further computer analysis, we identified a total of 6,318 taxpayers that had refiled paper
returns as married filing jointly after their electronic returns were initially rejected. We believe
modifying reject criteria to allow taxpayers who use the Married Filing Jointly status to file
electronically could relieve taxpayers from the burden of having to refile their returns on paper
and could benefit the IRS by increasing electronic filing and reducing processing costs. In our


15
   Internal Revenue Code Section 151, Allowance of deductions for personal exemptions, provides that a dependent
exemption is denied in the case of certain married dependents. No exemption shall be allowed for any dependent
who has filed a joint return with a spouse under Internal Revenue Code Section 6013.
16
   See ERC 509 in Appendix V.
17
   See ERC 510 in Appendix V.
                                                                                                         Page 7
                            Screening Electronically Filed Returns for Errors
                           Provides a Significant Benefit and Does Not Appear
                                   to Be a Barrier to Electronic Filing



analysis, such modifications would provide relief to 31,590 taxpayers (6,318 taxpayers per year
for 5 years) and save the IRS $62,230 in paper processing costs ($12,446 per year for 5 years).18

Recommendations
Recommendation 1: The Commissioner, Wage and Investment Division, should modify the
reject criteria for ERC 526, in conjunction with the modifications previously approved for
ERCs 506 and 507, to reduce the number of rejected electronic returns involving the duplicate
use of an SSN.
        Management’s Response: IRS management agreed with the recommendation. On
        December 28, 2006, the Wage and Investment Division Compliance function submitted a
        Work Request entitled, “Enhancement to Earned Income Tax Credit Taxpayer Burden
        Reduction for Electronic Filing,” to address this recommendation.
Recommendation 2: The Commissioner, Wage and Investment Division, should modify the
reject criteria for ERCs 509 and 510 to reduce the number of rejected electronic returns submitted
by married taxpayers filing jointly using a duplicated SSN.
        Management’s Response: IRS management agreed with the recommendation. The
        Submission Processing function E-Submission Branch will submit a Work Request for
        Tax Year 2007 requesting that the returns of married taxpayers filing jointly using a
        duplicated SSN be accepted electronically.




18
  The National Taxpayers Advocate’s 2004 Report to Congress reported the cost to the IRS of processing a paper
return is $2.59 and the cost of processing an electronic return is $0.62, a difference of $1.97.
                                                                                                        Page 8
                           Screening Electronically Filed Returns for Errors
                          Provides a Significant Benefit and Does Not Appear
                                  to Be a Barrier to Electronic Filing



                                                                                             Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate whether the acceptance controls for
electronically filed tax returns were creating an unnecessary barrier to increasing electronic
filing. This audit focused on comparing the front-end controls for accepting and processing
electronically filed returns with the controls for processing paper returns and evaluating whether
it would be appropriate to modify any of the controls to reduce taxpayer burden. To accomplish
our objective, we:
I.      Determined whether the controls for accepting and processing paper returns are less
        stringent than the front-end controls for accepting or rejecting electronically filed returns
        for processing.
        A. Analyzed the front-end electronic filing ERCs and identified 30 conditions causing
           taxpayers and preparers the greatest amount of electronic filing difficulty.
        B. Compared the controls associated with the 30 ERCs identified in Step I.A. to the
           paper processing controls to determine whether similar controls exist for paper filed
           returns.
II.     Determined whether less stringent controls over paper return processing allow paper
        returns that were initially filed electronically and rejected to be processed with the same
        conditions that caused them to be rejected from the electronic filing system.
        A. Identified a population of 777,023 Tax Year 2004 individual income tax returns on
           the IRS Tax Return Database that were rejected from the electronic filing system and
           subsequently filed on paper.1
        B. Analyzed the population of returns identified and determined the reasons the returns
           had been rejected from the electronic filing system.
        C. Reviewed 5 judgmental samples of 30 returns each from a population of
           337,249 duplicate SSN ERC returns to determine whether the paper returns were
           processed with the same error conditions that had caused them to be rejected from the
           electronic filing system. See Appendix V for details.


1
 To assess the reliability of computer-processed data, programmers in the Treasury Inspector General for Tax
Administration Office of Information Technology validated the data that were extracted, and we verified the
appropriate documentation. Judgmental samples were selected and reviewed to ensure the amounts presented were
supported by external sources. Based on these tests, we determined the computer-processed data were reliable.
                                                                                                      Page 9
                       Screening Electronically Filed Returns for Errors
                      Provides a Significant Benefit and Does Not Appear
                              to Be a Barrier to Electronic Filing



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Scott A. Macfarlane, Director
Gary L. Young, Audit Manager
Steven E. Vandigriff, Lead Auditor
Sharon A. Buford, Senior Auditor
Elizabeth A. Miller, Senior Auditor
Lawrence N. White, Senior Auditor
Sandra L. Hinton, Auditor
Bonnie G. Shanks, Auditor
Arlene Feskanich, Information Technology Specialist




                                                                                   Page 10
                       Screening Electronically Filed Returns for Errors
                      Provides a Significant Benefit and Does Not Appear
                              to Be a Barrier to Electronic Filing



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel C
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                     Page 11
                           Screening Electronically Filed Returns for Errors
                          Provides a Significant Benefit and Does Not Appear
                                  to Be a Barrier to Electronic Filing



                                                                                           Appendix IV

                                   Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Taxpayer Burden – Actual; 31,590 taxpayers would be affected over 5 years (see page 5).

Methodology Used to Measure the Reported Benefit:
We used computer analysis to identify two populations of Tax Year 2004 individual income tax
returns that had been rejected from the electronic filing system. A population of 28,126 returns
was rejected with an ERC 509 for the duplicate use of a secondary SSN; a population of
346,881 returns was rejected with an ERC 510 for the duplicate use of a primary and/or secondary
SSN. We further analyzed these returns and determined 6,318 were refiled on paper as married
filing jointly using a primary or secondary SSN that had been claimed by another taxpayer as a
dependent’s SSN. Using these results, we estimated that over 5 years the benefit produced from
modifying return reject criteria could extend to 31,590 taxpayers (6,318 taxpayers per year
X 5 years).

Type and Value of Outcome Measure:
•   Cost Savings (Funds Put to Better Use) – Actual; $62,230 in paper processing costs over
    5 years (see page 5).

Methodology Used to Measure the Reported Benefit:
According to the National Taxpayers Advocate’s 2004 Report to Congress, the cost to the IRS of
processing a paper return is $2.59 and the cost of processing an electronic return is $0.62, a
difference of $1.97.1 By allowing the 6,318 taxpayers to file electronically, the IRS could save
$12,446. Using these results, we estimated that over 5 years the benefit could result in a
reduction of $62,230 in processing costs ($12,446 per year X 5 years).



1
 The National Taxpayer Advocate’s Report referenced Internal Revenue Manual Exhibit 3.30, Cost Estimate
Reference, Exhibit 3.30.10-39 (Rev. 11-01-2003).
                                                                                                     Page 12
                     Screening Electronically Filed Returns for Errors
                    Provides a Significant Benefit and Does Not Appear
                            to Be a Barrier to Electronic Filing



                                                                              Appendix V

            Error Reject Code Sampling Results
                for Returns Refiled on Paper

•   ERC 506 – Indicates the Qualifying SSN (or Number) on the Earned Income Credit:
    Qualifying Child Information (Schedule EIC) was previously used for the same purpose.
    Our review of a sample of 30 returns refiled on paper determined 24 returns (80 percent)
    were refiled claiming the EITC using the duplicated Number.
•   ERC 507 – Indicates the dependent’s SSN was previously used for the same purpose.
    Our review of a sample of 30 returns refiled on paper determined 27 returns (90 percent)
    were refiled with the same duplicated Number.
•   ERC 509 – Indicates the secondary SSN was previously used as a dependent’s SSN,
    or a Schedule EIC Qualifying SSN, on a previous or current return. It also indicates a
    dependent’s Number or a Schedule EIC Qualifying Number was used as a secondary
    SSN on a previous or current return. Our review of a sample of 30 returns determined
    26 returns (87 percent) were refiled with the same condition. On 15 of the 26 returns,
    the secondary SSN was claimed as a dependent on another taxpayer’s return, and on
    6 returns the dependent was used as a secondary Number on another taxpayer’s return.
•   ERC 510 – Indicates the primary and/or secondary SSN was claimed as an exemption on
    the return and was also used as a dependent’s SSN on another return. Our review of a
    sample of 30 returns refiled on paper determined that 27 returns (90 percent) were refiled
    on paper with the same condition. On 21 of the 27 returns, the taxpayer claimed a
    dependent that also filed a return as the primary taxpayer claiming a personal exemption.
    On 6 of the 27 returns, the taxpayer was claimed as a dependent on another return.
•   ERC 526 – Indicates the Qualifying Person’s SSN used for Child and Dependent Care
    Expenses (Form 2441) or for Child and Dependent Care Expenses on Form 1040A
    Filers (Schedule 2) was previously used for the same purpose. Our review of a sample of
    30 returns refiled on paper determined 21 returns (70 percent) were refiled claiming the
    Credit for Child and Dependent Care Expenses.




                                                                                      Page 13
        Screening Electronically Filed Returns for Errors
       Provides a Significant Benefit and Does Not Appear
               to Be a Barrier to Electronic Filing



                                                   Appendix VI

Management’s Response to the Draft Report




                                                            Page 14
 Screening Electronically Filed Returns for Errors
Provides a Significant Benefit and Does Not Appear
        to Be a Barrier to Electronic Filing




                                                     Page 15
 Screening Electronically Filed Returns for Errors
Provides a Significant Benefit and Does Not Appear
        to Be a Barrier to Electronic Filing




                                                     Page 16
